<html>
<title></title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                                 

                          [H.A.S.C. No. 116-5]

       NAVAL SURFACE FORCES READINESS: ARE NAVY REFORMS ADEQUATE?

                               __________

                             JOINT HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON READINESS

                         MEETING JOINTLY WITH

             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                           FEBRUARY 26, 2019

                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                                      
  
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
35-338                      WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
                 
                    
                    
                    
                    SUBCOMMITTEE ON READINESS

                  JOHN GARAMENDI, California, Chairman

TULSI GABBARD, Hawaii                DOUG LAMBORN, Colorado
ANDY KIM, New Jersey, Vice Chair     AUSTIN SCOTT, Georgia
KENDRA S. HORN, Oklahoma             JOE WILSON, South Carolina
CHRISSY HOULAHAN, Pennsylvania       ROB BISHOP, Utah
JASON CROW, Colorado                 MIKE ROGERS, Alabama
XOCHITL TORRES SMALL, New Mexico     MO BROOKS, Alabama
ELISSA SLOTKIN, Michigan             ELISE M. STEFANIK, New York
VERONICA ESCOBAR, Texas              JACK BERGMAN, Michigan
DEBRA A. HAALAND, New Mexico
               Melanie Harris, Professional Staff Member
                 Tom Hawley, Professional Staff Member
                          Megan Handal, Clerk

                                 ------                                

             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                  JOE COURTNEY, Connecticut, Chairman

JAMES R. LANGEVIN, Rhode Island      ROBERT J. WITTMAN, Virginia
JIM COOPER, Tennessee                K. MICHAEL CONAWAY, Texas
DONALD NORCROSS, New Jersey          MIKE GALLAGHER, Wisconsin
SETH MOULTON, Massachusetts          JACK BERGMAN, Michigan
FILEMON VELA, Texas                  MICHAEL WALTZ, Florida
GILBERT RAY CISNEROS, Jr.,           VICKY HARTZLER, Missouri
    California                       PAUL COOK, California
MIKIE SHERRILL, New Jersey           BRADLEY BYRNE, Alabama
KATIE HILL, California               TRENT KELLY, Mississippi
JARED F. GOLDEN, Maine
ELAINE G. LURIA, Virginia, Vice 
    Chair
              Phil MacNaughton, Professional Staff Member
                Dave Sienicki, Professional Staff Member
                          Megan Handal, Clerk
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Courtney, Hon. Joe, a Representative from Connecticut, Chairman, 
  Subcommittee on Seapower and Projection Forces.................     3
Garamendi, Hon. John, a Representative from California, Chairman, 
  Subcommittee on Readiness......................................     1
Lamborn, Hon. Doug, a Representative from Colorado, Ranking 
  Member, Subcommittee on Readiness..............................     2
Wittman, Hon. Robert J., a Representative from Virginia, Ranking 
  Member, Subcommittee on Seapower and Projection Forces.........     5

                               WITNESSES

Aquilino, ADM John C., USN, Commander, U.S. Pacific Fleet, 
  Department of the Navy.........................................     7
Grady, ADM Christopher W., USN, Commander, U.S. Fleet Forces 
  Command, Commander, U.S. Naval Forces Northern Command, 
  Department of the Navy.........................................     6

                                APPENDIX

Prepared Statements:

    Courtney, Hon. Joe...........................................    39
    Garamendi, Hon. John.........................................    37
    Grady, ADM Christopher W., joint with ADM John C. Aquilino...    43
    Lamborn, Hon. Doug...........................................    38
    Wittman, Hon. Robert J.......................................    41

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mrs. Luria...................................................    55
    Mr. Wittman..................................................    55
    
    
       NAVAL SURFACE FORCES READINESS: ARE NAVY REFORMS ADEQUATE?

                              ----------                              

        House of Representatives, Committee on Armed 
            Services, Subcommittee on Readiness, Meeting 
            Jointly with the Subcommittee on Seapower and 
            Projection Forces, Washington, DC, Tuesday, 
            February 26, 2019.

    The subcommittees met, pursuant to call, at 10:00 a.m., in 
room 2118, Rayburn House Office Building, Hon. John Garamendi 
(chairman of the Subcommittee on Readiness) presiding.

OPENING STATEMENT OF HON. JOHN GARAMENDI, A REPRESENTATIVE FROM 
        CALIFORNIA, CHAIRMAN, SUBCOMMITTEE ON READINESS

    Mr. Garamendi. Good morning. We are prepared to start here. 
So welcome to all of you. I saw you down there, and I knew we 
could start. Very good.
    Good morning, ladies and gentlemen. I call to order this 
hearing, joint hearing of the Readiness and Seapower and 
Projection Forces Subcommittees of the House Armed Services 
Committee. I would like to state at the outset that we continue 
to honor and remember the 17 sailors who died in the tragic 
surface ship collisions of 2017. None of us on this committee, 
and I am sure within the Navy itself, will forget. And we will 
continue to mourn those losses that were unfortunately 
avoidable. Our thoughts remain with their loved ones, with 
their family and their friends.
    Over the last 18 months, this committee has held numerous 
hearings and meetings with Navy leadership in an attempt to 
understand the causes of those devastating incidents. I 
appreciate the Navy's attention to this issue and continued 
willingness to engage with the committee.
    I also recognize that implementing significant reforms 
takes time. Often too much time. However, I am concerned that 
the Navy has not sufficiently addressed several of the problems 
responsible for the deadliest naval disasters in four decades. 
I worry that the Navy leadership remains overly focused on 
shipbuilding and is not adequately prioritizing the manning and 
maintenance of its current fleet.
    I am troubled by reports that the Navy's investigations 
were not fully transparent about the extent to which a brutal 
operational tempo, low morale, and preventable technological 
challenges contributed to these disasters.
    I wonder if the Navy could do more to constrain the demand 
for use of the surface force. Moreover, I worry that Navy is 
not thinking deeply enough about how to change its culture to 
empower officers to voice concerns and install an ethic of 
rigor and excellence.
    I look forward to hearing the updates from our witnesses on 
corrective actions the Navy has taken in the past year, 
particularly those related to the numerous surface ship 
provisions included in the fiscal 2019 NDAA [National Defense 
Authorization Act]. I encourage our witnesses to candidly 
discuss their efforts and any challenges they face as they work 
to improve the Navy's surface readiness. I am also eager to 
learn more about the degree to which the ongoing and planned 
reforms will be permanently enshrined in naval policy and 
doctrine.
    As the memory of those tragic incidents grows more distant, 
it is our shared responsibility to ensure that crews and ships 
will continue to be adequately manned, trained, and maintained. 
This committee stands ready to assist.
    With that, I would like to turn to our ranking member, 
Congressman Doug Lamborn of Colorado, for any remarks that he 
may want to make.
    [The prepared statement of Mr. Garamendi can be found in 
the Appendix on page 37.]

STATEMENT OF HON. DOUG LAMBORN, A REPRESENTATIVE FROM COLORADO, 
           RANKING MEMBER, SUBCOMMITTEE ON READINESS

    Mr. Lamborn. Thank you, Mr. Chairman. And it is great to be 
with the members of the Seapower Subcommittee as well. This 
combined joint hearing is really important, so I am glad that 
we are having it. And it really is based ultimately on 
readiness. So thank you for having this important hearing.
    I would also like to recognize the spouses of our 
witnesses: Christine Grady and Laura Aquilino. We on this 
subcommittee know the vitally important role our precious 
military families play in the readiness and resilience of our 
troops. And we appreciate your presence and support here today. 
Welcome to this hearing.
    We all recognized too late that Naval Surface Forces, 
especially forward-deployed ships, were being run too hard. 
Ship's maintenance suffered, as did crew training and 
proficiency. Tragically, it took the deaths of 17 sailors to 
bring the problem to light and force all of us, the Navy and 
Congress alike, to pay attention.
    True to form, the Navy and the Congress took decisive 
action, including, particularly in this subcommittee, in last 
year's National Defense Authorization Act. Now, nearly 2 years 
since the fatal collisions and over a year since our last 
public hearing on this topic, it is time to review the state of 
Naval Surface Forces. I am concerned with three things: Have 
the corrections employed made a difference? What further 
actions are needed? And do any of the changes implemented need 
to be reversed?
    I note that our witnesses today are responsible for both 
the operational control and readiness of the Atlantic and 
Pacific Fleets. Vesting a single official with the pressures of 
both responsibilities was part of the problem in 2017, although 
such vesting was at a lower level of command.
    I am interested in understanding how these commanders weigh 
these disparate responsibilities and whether institutional 
protections are in place to prevent overuse of the fleet in the 
future.
    While I am confident in the abilities of our witnesses, I 
want to ensure that their successors are equally equipped to 
withstand the imperatives of operational pressures when they 
are unsure their ships and crews are ready. I deeply respect 
the military expertise that must come to bear when determining 
whether a ship's crew is trained and ready to operate the 
complex team operations of a modern warship, whether the ship 
is mechanically ready, and whether that ship and crew can 
perform the mission expected. We are eager to understand how we 
assure safe deployments into the future.
    Thank you, Mr. Chairman. I look forward to our witnesses' 
testimony.
    [The prepared statement of Mr. Lamborn can be found in the 
Appendix on page 38.]
    Mr. Garamendi. Thank you, Mr. Lamborn. I look forward to 
working with you and the committee as we go forward.
    And now I would like to turn to the chairman of the 
Seapower Committee, Mr. Courtney.

     STATEMENT OF HON. JOE COURTNEY, A REPRESENTATIVE FROM 
CONNECTICUT, CHAIRMAN, SUBCOMMITTEE ON SEAPOWER AND PROJECTION 
                             FORCES

    Mr. Courtney. Thank you, Mr. Chairman and Ranking Member 
Lamborn. I look forward to continuing the close and ongoing 
work between the two committees, Readiness and Seapower, that 
we have conducted over the last year and a half on the issues 
before us today.
    To new members on the subcommittee, today's hearing is 
about the fourth or fifth public hearing that we have had 
jointly since the series of tragedies that occurred at sea, as 
well as classified briefings and obviously staff meetings that 
have intensively investigated those occurrences which claimed 
the lives of 17 sailors in 2017.
    Again, to put that into perspective, that is a number that 
far surpassed the number of U.S. casualties in Iraq and Syria 
in 2017. Two of those sailors came from Connecticut. One, 
Dustin Doyon, was an electronics technician from Suffield, 
Connecticut. His loss still is a deep wound in the community. 
And I want to just again publicly thank his parents as well as 
again all the families who have stayed in close contact with 
both the Navy and Congress, again, to make sure that their 
lives were not lost in vain and that there will be real change 
to prevent those from occurring again in the future.
    These hearings have given our committee and the public a 
greater understanding of both the immediate and systemic issues 
that contributed to this stomach-turning loss of life. The 
hearings also resulted in significant statutory provisions 
enacted in last year's 2019 John McCain National Defense 
Authorization Bill that codified a variety of the changes to 
surface fleet operations and procedures. And I mention Senator 
McCain because, actually, he was the most adamant during the 
conference during the 2019 NDAA to make sure that the many 
recommendations actually are now a part of law and statute. 
And, again, his passion was really, I think, important for 
everybody in terms of the making sure that we do everything 
possible to avoid this in the future.
    Today's hearing is the first review by the new Congress on 
how these changes are being executed. For the record, I also 
want to publicly note the professional staff of the Government 
Accountability Office [GAO] that has been diligently following 
up and investigating the work of Surface Fleet Forces in the 
Indo-Pacific Command's efforts in the last year and has 
provided a thorough report card that I would encourage members 
to review as a measurement of the Navy's follow-through on some 
of its own recommendations.
    Today's hearing also follows a new round of lengthy 
investigative press articles on the collisions of USS 
Fitzgerald and McCain. These articles describe in great detail 
the many individual tragedies that occurred and the broader 
systemic issues that contributed to these collisions. I commend 
the reporters for their contributions to the public's 
understanding of readiness challenges facing our fleet.
    In the wake of last year's inquiries by the Navy and 
Congress, there were a number of critical deficiencies 
identified, including the lack of crew certifications for 
critical tasks and conflicting authority for tasking and 
readiness. One particular area identified that I remain 
concerned about is the challenge of manning the fleet. Do we 
have enough sailors on board our surface ships, and are they 
qualified for the roles they are expected to take on?
    The Navy and Congress have worked together to turn the 
strategic requirement for the Navy's presence to long-term 
shipbuilding plans, authorization bills, and funding as we 
begin a drive towards a 355-ship Navy. At the same time, there 
are approximately about 6,000 to 8,000 open billets across the 
current Navy. And recent reporting to Congress shows that 
manning issues continue to persist across the fleet.
    As we continue to invest in the new construction of ships 
needed to grow the fleet, we must also ensure that we are 
making a concurrent investment in personnel to ensure that we 
have the proper number of sailors to man these ships. We must 
be prepared to plan for and make investments in the personnel 
necessary to operate a growing fleet.
    I will be interested to hear from the witnesses on how they 
are working to address the manning shortfalls before them. And 
I look forward to seeing in the fiscal year 2020 budget the 
investments needed to man the growing [surface] fleet in the 
coming years.
    Finally, while it is clear that major mistakes were made on 
individual ships, I think it is also clear that there were 
broader problems that existed within our forward-deployed 
forces. These issues did not exist in the vacuum of a select 
few. Readiness and over-tasking concerns have been voiced at 
the highest level of leadership. The American people must have 
the confidence in their leaders that when the alarm bells are 
rung, they will be followed up by real action. Our sailors and 
our families deserve nothing less.
    Thank you.
    [The prepared statement of Mr. Courtney can be found in the 
Appendix on page 39.]
    Mr. Garamendi. Thank you, Mr. Courtney.
    I would like to now turn to Mr. Wittman, the ranking member 
of the Seapower and Projection Forces Subcommittee.

  STATEMENT OF HON. ROBERT J. WITTMAN, A REPRESENTATIVE FROM 
    VIRGINIA, RANKING MEMBER, SUBCOMMITTEE ON SEAPOWER AND 
                       PROJECTION FORCES

    Mr. Wittman. Thank you, Mr. Chairman.
    I want to thank Admiral Grady and Admiral Aquilino for 
attending this important hearing.
    I also want to welcome their wives: Christine Grady and 
Laura Aquilino. Thank you so much for joining us today. We 
appreciate your sacrifice as you, too, are part of our Navy 
family.
    Last year, we had a hearing with Secretary Spencer and 
Admiral Richardson to discuss Navy reforms and recommendations 
to respond to deficient readiness highlighted by the loss of 17 
sailors aboard the USS John McCain and USS Fitzgerald. These 
readiness reforms were codified in the Comprehensive Review and 
Strategic Readiness Review.
    Navy continues to make progress toward accomplishing the 
goals that Navy leadership determined would be necessary to 
correct deficient readiness. However, the committee has learned 
much since that hearing that appears unaddressed in these 
seminal documents. For example, we have learned that the 
readiness deficiencies are systemic and engross the entire 
fleet. We have learned that severe manning deficiencies exist 
afloat because of an imbalance in the afloat and ashore 
billeting and an overall deficit in afloat billets.
    We have learned that Navy allows ships to begin the basic 
and advanced predeployment training without the required number 
of sailors. We have learned that the limited-notice INSURV 
[Inspection and Survey] inspections are bearing a true 
depiction of the material readiness of the fleet. The readiness 
picture is not as pretty as when ships have months to prepare 
and cannibalize their fellow shipmates.
    And, finally, we have learned that the basic and advanced 
tenets of enlisted training are perilously askew and will take 
years to rebuild.
    In summary, the basic elements of manning, training, and 
equipping are challenged across the fleet and will take years 
of leadership focus and sustained funding to correct. My fear 
is that the Navy will measure their progress against the 
Comprehensive Review and the Strategic Readiness Review 
checklist and will miss the fundamental overhaul necessary to 
right a sinking ship.
    Because these systemic challenges were not adequately 
addressed in the Comprehensive Review or the Strategic 
Readiness Review, we will undershoot the mark and miss true 
structural reform. Some pundits have indicated that the sailors 
that stood the watch on the decks the USS John S. McCain and 
USS Fitzgerald were at fault and cited numerous safeguards that 
failed to prevent these tragic deaths.
    However, I have come to an alternative conclusion. It is 
apparent that senior leadership failed to put adequate systems 
in place to prevent these collisions. It is apparent that 
senior leadership's acceptance of unnecessary risk to meet 
COCOM [combatant commander] demands led to the deaths of 17 of 
our Nation's finest. It is apparent that the Navy classifies 
innumerous products to hide the true depth of readiness 
challenges that plague the Navy today. And it is most important 
to me that if the appropriate reforms are not properly 
implemented, these problems and these deaths will continue.
    Last year, Dr. Holmes of the Naval War College asked, who 
watches the watchers in the United States Navy?
    At a hearing with Secretary Spencer and CNO [Chief of Naval 
Operations] Richardson on this same subject, I indicated that 
we will watch the watchers. I remain committed to ensuring that 
we must not forget the lives lost on the USS John S. McCain and 
USS Fitzgerald.
    I look forward to continuing to advocate for these fallen 
sailors and ensuring real structural reforms are put in place. 
[Toward] this endeavor, I think the Navy has gone a long way to 
ensure minimum standards are set in place to ensure basic 
safety and mission proficiency, yet we have a long ways to go.
    Mr. Chairman, with that, I yield the balance of my time.
    [The prepared statement of Mr. Wittman can be found in the 
Appendix on page 41.]
    Mr. Garamendi. I thank you, Mr. Wittman.
    And, Mr. Lamborn, your leadership in the past Congress 
brought us a long way towards this issue, and I thank you for 
your hard work in the previous Congress and look forward to 
working with you as we continue this Congress. And, of course, 
Mr. Courtney, your role as chairman of the committee.
    It is now my pleasure to welcome to the hearing Admiral 
Grady and your wife. Behind you, I think Christine is back 
there somewhere. There she is. Welcome.
    And also Admiral Aquilino and your wife, Laura, is back 
there. So thank you so very much for joining us today.
    If you will present your testimony.

  STATEMENT OF ADM CHRISTOPHER W. GRADY, USN, COMMANDER, U.S. 
  FLEET FORCES COMMAND, COMMANDER, U.S. NAVAL FORCES NORTHERN 
                COMMAND, DEPARTMENT OF THE NAVY

    Admiral Grady. Good morning, Mr. Chairman, and Chairman 
Courtney, Ranking Members Lamborn and Wittman, and 
distinguished members of both subcommittees. Thank you for the 
opportunity to testify along with my Pacific Fleet colleague 
and partner on the readiness of our surface forces.
    As a fleet commander, I consider my duty to ensure the 
welfare of the people I lead, the center of the universe, our 
sailors, our government civilians and their families, to be my 
first and most solemn responsibility.
    While we cannot bring back the 17 heroes that we lost 18 
months ago, the entire Navy is focused on never letting that 
happen again. And to the Gold Star family members, you humble 
us every day, and I hope you know that I am firmly committed to 
giving our sailors everything they need to safely and 
effectively perform their mission.
    Since learning the hard lessons of 2017, your Navy has 
aggressively implemented a series of actions to prevent any 
such tragedy in the future. We are focused on safe operations, 
increasing fleet effectiveness, and ensuring long-term 
sustained readiness by establishing a culture of operational 
excellence. Some examples of actions taken were included in our 
joint written statement for the record. And I look forward to 
discussing these and others in more detail with you this 
morning.
    Now, ensuring adherence to standards alone, though, while 
necessary, is not enough for our Navy to win decisively in 
high-end conflict. And as such, we aim to progress the Navy's 
culture beyond mere compliance and toward a culture of 
operational excellence, a culture where we view standards as 
the absolute minimum, and then strive for peak warfighting 
readiness. Our sailors, our officers, our civilian shipmates 
are embracing this challenge knowing that we value their 
contributions and what they do matters to the security of our 
Nation.
    While each fleet commander has separate authority, 
responsibility, and accountability for generating and employing 
ready forces, we do so to the same standard as we had laid out 
in the recently published Navy Integrated Readiness 
Instruction. And as the Fleet Forces Commander, I am 
responsible for setting that single standard in concert with my 
fellow fleet commanders. And we do this knowing that it is one 
fight, one Navy.
    The fleet commanders are in position to provide readiness 
oversight, and together we approach this with the strongest 
sense of urgency. We are currently safe to operate. We are a 
more effective Navy. But the hard work has only just begun.
    Once again, I thank you for the opportunity to appear 
before you today. And many thanks to both committees and to the 
Congress for your continued support of your Navy. And I look 
forward to your questions and our discussion.
    Thank you.
    [The joint prepared statement of Admiral Grady and Admiral 
Aquilino can be found in the Appendix on page 43.]
    Mr. Garamendi. Admiral Aquilino.

STATEMENT OF ADM JOHN C. AQUILINO, USN, COMMANDER, U.S. PACIFIC 
                 FLEET, DEPARTMENT OF THE NAVY

    Admiral Aquilino. Mr. Chairman, Chairman Courtney, Ranking 
Members Lamborn and Wittman as well as the distinguished 
members of the subcommittees, on behalf of the sailors, 
civilians, and families who serve in the Pacific Fleet of the 
world's finest Navy, I would first like to thank you for your 
substantial readiness investments you have made in us. Armed 
with your support, we continue to aggressively take action to 
rebuild our readiness. That said, there is still great work to 
do.
    To the family members of the brave sailors we lost on 
Fitzgerald and McCain, we will never forget them, and they 
motivate me every day. We are implementing the recommendations 
of the Comprehensive Review, Strategic Readiness Review, and 
the GAO to ensure we address all those core issues identified. 
We are confident that we have made/are making the changes to be 
sure the fleet is operating safely, and it is certified to 
execute all the missions assigned.
    If the ships in the Pacific Fleet are not ready to safely 
sail, they don't get underway, and that is my responsibility. 
The improvements we are making are ongoing. It is also 
important to note that the readiness of the fleet is fragile, 
and it is also perishable.
    We are committed to ensure our units are manned, trained, 
and equipped to execute the Nation's calling. I want to thank 
you for your continued support in providing the stable and 
consistent funding needed to support our Navy. The challenges 
to our Nation's interest require a Navy in the Pacific that is 
always ready to fight. Ensuring our readiness is the foundation 
and key to our success, and I look forward to your questions.
    Mr. Garamendi. As is the historic practice of the 
committee, we will start with the chairpersons and then the 
ranking members and then go to those members who were here 
first before the gavel came down. And so we will follow that 
practice. And that means I get to start.
    So, gentlemen, you have set in place a series of standards. 
Presumably, the implementation of those standards is the 
responsibility of not only you but the chain of command down to 
the commander of the ship.
    Can you assure us that the standards are actually being in 
place at the level of the ship, the surface vessel?
    Admiral Grady, if you want to start with the standards. You 
might want to talk a little bit about what they are and 
specifically, as said by our colleagues here, the manning, the 
tempo, as well as the material readiness of the ship.
    So talk about the standards, and then, Admiral Aquilino, if 
you could talk about actually imposing those standards on the 
operations.
    Admiral Grady. Yes, sir, Mr. Chairman. Thank you.
    Those standards are across the pillars of man, train, and 
equip as we have heard today. So it starts with ensuring that 
each ship in every unit has operating and functioning equipment 
with the appropriate redundancy to get the mission done. And we 
are very focused on that, and with your help, we are being 
successful in doing that.
    The training, then, is broken up and the standards are 
established in three various phases. There is the basic phase, 
the advanced phase, and the integrated phase of training. That 
training is measured and assessed. And those standards are 
maintained such that they do not advance from one phase to the 
next until those standards have been met across all three 
phases.
    That builds on a foundation of certifications for each 
individual as well. So our sailors and our officers are well 
trained as well. And then we bring them together as teams 
because teams are absolutely critical to what we do. And then 
the manning piece is very foundational to the work that we do.
    And so, as has been pointed out, we have some manning 
challenges that we are working through right now. The number 
specifically is 6,200 billets at sea that are not filled right 
now, although the Navy, with your help, has purchased those 
billets, and we will be flowing them into the fleet over time. 
And the goal is to have them on the ship at the beginning of 
the maintenance phase.
    Now, as we work our way through that hole of 6,200 billets 
and man the ships to that requirement, we do take some risk. 
And so sometimes we have to take some risk in the maintenance 
phase before we have all of the people onboard. But it is, I 
believe, both fleet standards that no one deploys without the 
full complement of people that they will have.
    So it starts with the individual, the officer and the 
sailor, the training that we give them. It then builds into the 
team phase across three basic phases. And then the 
certifications happen at the very highest end at the largest 
aggregation of, say, a strike group. And then we ensure that 
the ships are equipped with the appropriate gear.
    I can tell you that we in the Atlantic Fleet--and I think I 
speak for all the fleet commanders--we do not ask a ship nor 
direct a ship to go on mission if they are not certified to do 
the job. And I have made sure that that is the case. And, 
indeed, there have been several occasions where I have said 
that ship is not ready. We will need more time.
    And that is the highest form, I think. We know what the 
requirement is, and if they are not ready, they are not going.
    Mr. Garamendi. So, Admiral Aquilino, you are given the 
standards. How do you apply them?
    Admiral Aquilino. Mr. Chairman, thanks for the question.
    So Admiral Grady and I, in conjunction, we develop the 
standards. He is responsible to the CNO to identify those. Our 
training organizations implement those standards across the 
fleet in the form of Carrier Strike Group 4, 15, and our Afloat 
Training Group organizations. We have implemented a path where 
those organizations actually operate across the coast with each 
other to ensure that we understand the standards; we are 
grading against the standards; and then those are absolutely 
evaluated, assessed, and determined whether or not those units 
meet the standard.
    To Admiral Grady's point, we have both taken a top-down 
view of what it needs to--what we need to do to execute those 
standards from our levels of responsibility. And I also have 
terminated two deployments for units that were not assessed to 
have the appropriate level of training to deploy and execute 
their missions.
    Additionally, I took an entire strike group, again with the 
approval of Admiral Davidson, the combatant commander, because 
we meet his responsibilities. We have reduced their requirement 
to remain ready longer in order to free up manning concerns and 
posture those forces to be able to be ready for the next cycle 
of employment, given the rest, the time they need in order to 
ensure that they are ready. I could not do that without the 
help of Admiral Davidson, who supported that, as he has 
identified in the CR [Comprehensive Review], that the improper 
balance between operations, training, and maintenance needed to 
be reconciled.
    Mr. Garamendi. Thank you for mentioning Admiral Davidson, 
who apparently said at a meeting of commanders of the ships and 
admirals: If you can't take your ships to sea and accomplish 
the mission with the resources you have, then we will find 
someone who will.
    How does that fit with what you just said?
    Admiral Aquilino. Thanks, Mr. Chairman. I am not sure--I 
wasn't at any meeting. I don't know what he said. I don't know 
if it was accurate.
    What I can tell you is deeds that he has implemented match 
the guidance that he has given me. So, by him reducing some of 
the operational demands in the Pacific, to me, that is a pretty 
strong example of someone who understood the concerns when the 
report was written and doing his part to ensure that it doesn't 
happen again as well.
    Mr. Garamendi. Very good.
    Let me now turn to my colleague, Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman.
    Again, just to sort of, I think, fill up the context in 
terms of the two incidents which we talked about earlier this 
morning. There are actually four at-sea incidents which took 
place in 2017. In addition to the Fitzgerald and the McCain, 
the USS Antietam also grounded on January 31, 2017. And the USS 
Lake Champlain collided with a fishing trawler in May.
    So, you know, the one sort of common thread of all four of 
those incidents is they all occurred in the Pacific region in 
the 7th Fleet.
    And, Admiral Aquilino, as you know, I mean, there has 
always been sort of a carve-out for the Pacific Command in 
terms of this whole question of who decides the decision to 
task a ship versus who decides in terms of whether the ship is 
ready.
    The Congress actually wrestled with this issue in terms of 
whether or not to change that carve-out by law. And, you know, 
there was a decision made to sort of give the Navy an 
opportunity to sort of see if they can sort of reorganize this 
whole decision-making process. You just described where you 
terminated two deployments with the new arrangement.
    Again, if you could just sort of talk about that a little 
bit more just sort of, you know, the mechanics of how that 
process, you know, gets resolved when there is a conflict 
between the resource end versus the tasking end.
    Admiral Aquilino. Thanks, Mr. Chairman.
    So the process that we have implemented is a part of my 
normal operations each day and week. I am briefed 3 days a week 
on the exact readiness of the force that is deployed and if 
there are manning issues, training issues, or equipment issues 
on that ship. And in my role, we support those equipment issues 
that need to be fixed. And, again, we execute our role.
    Once a week, I talk to every one of my commanders. We talk 
about the longer term view of the readiness of the force as 
well as upcoming deployers to make sure they are on track. And 
then, once a week, in an additional meeting, I talk about those 
ships and maintenance to make sure that the ones getting ready 
to go in and the ones that are in are progressing as we need 
them to progress.
    Now, if any of those indications show me that I have a 
problem coming up or one immediately identified that we were 
not aware of, I have a voice to the combatant commander. And 
when I determine that ship is either not manned, trained, 
equipped, unsafe, uncertified, number one, I would terminate 
their ops and then have that conversation with the combatant 
commander.
    As you know, the world gets a vote. So, depending on what 
is going on, we have had very frank conversations. And, again, 
in the instances I identified, Admiral Davidson concurred with 
my recommendations, and we did not deploy those ships.
    Mr. Courtney. So the way that operates, is there like a 
manual? Is there like a written directive that sort of, you 
know, instructs the different commands, you know, in terms of 
how this proceeds and who decides?
    Admiral Aquilino. So the readiness instruction just signed 
out identifies the responsibilities. It stops right here. But 
below me my three-star subordinate commanders also are aware, 
and they are responsible to also take the same review that I 
have. They then speak with me.
    I believe the process is structured in a way such that all 
the subordinate commanders understand the responsibilities, 
they understand the standards, and they know that they owe me a 
voice that says, ``Hey, I am not ready to deploy,'' and that 
has to come to me for decision.
    Mr. Courtney. So, again, because this really, in my 
opinion, really kind of goes to the heart of, you know, all the 
analysis that we sort of went through over the last couple of 
years, which is, you know, whether or not there is a safety 
break, I think that was Admiral Richardson's term during the 
hearings last Congress, to really sort of say, you know, this 
deployment really just can't occur because there is lack of 
certifications, there is equipment issues, et cetera. And it 
sounds like, again, you worked out an arrangement that really 
has changed the way that decision is made.
    The question I guess that a lot of us--still sort of nags 
us is just whether or not there is going to be an enduring 
structure after you move on to other things and, you know, your 
replacements, you know, that there is going to be something in 
place because, really, when we wrestled with this in terms of 
the NDAA, you know, that really was sort of the question, 
whether we need something more permanent and just sort of--so 
can you just sort of talk about that in terms of whether or not 
you think this is just going to sort of fade away as the issue 
maybe losses its public, sort of, spotlight, or whether or not 
there is something more enduring?
    Admiral Aquilino. Yes, sir. I think it actually is 
formalized in our instructions as well as the roles and 
responsibilities assigned to each of the commanders. So I 
implement for the CNO on the Pacific side the title 10 
responsibilities to man, train, and equip the fleet. Those 
standards are set by Admiral Grady in coordination with us. 
And, again, we adhere to those rigorously.
    The employment responsibilities, I execute for Admiral 
Davidson. So I believe they are formalized and understood. And 
while Chris and I continue to work together, I am confident 
that whoever comes behind us will also--they will have the same 
responsibilities and roles. And it is institutionalized in a 
way where I think we get away from that problem set.
    And if I give Chris a chance to talk, all these were 
focused on the Pacific, but we are doing the exact same thing 
to the same standards fleetwide.
    Admiral Grady. That is absolutely right. And, Mr. Chairman, 
it is a very valid concern that we transition from--into this 
persistent culture of excellence.
    In this regard, then, I do believe that we have well 
codified the requirements for certification and this idea that, 
across all echelons, then, being able to put the firebreaks in 
place to achieve that balance between maintenance, training, 
and operations are in place.
    Ultimately, too, though, I think it gets down to the level 
of, do we feel that that commanding officer has the confidence 
to speak up when he needs to speak up, and does he have the 
mechanisms by which to do that? Lung [Admiral Aquilino's call 
sign] described his battle rhythm of his ability to then keep 
his finger and his subordinate commanders' fingers on the pulse 
of the readiness of the fleet.
    I have a very similar battle rhythm. I will give you one 
additional example that both he and I do, and that is the phase 
transitions. Remember I talked about basic, advanced, and 
intermediate--or integrated phases and the maintenance phase. 
We take a look at each ship and every strike group before they 
transition phases to make sure that they are ready to do that.
    And back down to the CO [commanding officer] level, one of 
the things that I think will go a long way to codifying and 
institutionalizing that beyond Chris and I here is the 
requirement for COs to issue a 90-day letter to their type 
commander after they take command. This is a direct feedback to 
their type commander on the condition of their ship, the man, 
the train, the equip, across all the pillars of readiness. And 
that has been a very powerful voice for the commanding officer.
    And then you build on that with these touchpoints that we 
have with our commanding officers to their subordinate, to our 
subordinate commanders, be it at the strike group or the type 
commander level. And then having the trust that I think Lung 
and I do going up the echelon to say: I am not going to send 
that ship. And in my case, it was either replace it with 
another one that was ready, or they are going to come 3 weeks 
late because I need to finish the training. And we have had 
great success in that.
    Mr. Garamendi. Admiral, thank you very much.
    Let me now turn to Mr. Lamborn.
    Mr. Lamborn. Well, thank you. We have had a good discussion 
on readiness and what needs to happen. I also want to talk 
about procurement and funding, which is my colleague's sort of 
wheelhouse. But we all have a say in what happens at the NDAA 
level.
    These accidents demonstrated clearly that the operational 
demands on the Navy were too high. In short, the Navy has too 
few ships and trained crews to perform all of the missions 
requested and required.
    To continue on the path to recovery, how important is the 
sustained top line at the recently enacted levels? For both of 
you.
    Admiral Grady. I will start. Thank you for the question, 
sir.
    When you look at building the Navy the Nation needs and, 
just as importantly, fighting with the Navy the Nation has, 
knowing that 70 percent of the force that we have now we would 
fight with in 2030, the consistent, stable, and predictable 
funding is absolutely critical to the fleet. And we thank you 
for your support in that.
    Without that, we are unable to plan effectively or be 
better partners with the industrial base, which I think is 
absolutely critical so that we can establish that demand signal 
with them and be better partners with, for instance, the 
private shipyards.
    So the criticality, then, of critical--a consistent, 
stable, and predictable funding cannot be underestimated.
    Admiral Aquilino. Thanks, sir.
    So I think what I would say is, against the threats that 
exist today, capabilities, sizes, and you could argue intent, 
the Navy the Nation needs is one that is bigger, more lethal, 
networked, and ready.
    I think you have seen everything that has come out of the 
CNO that talks about those things. But for the challenges in 
the Pacific that I have, the challenges that Chris and I both 
work from the Atlantic and Pacific side, that is pretty 
accurate of what we believe we need in the future. So it is 
critical.
    Mr. Lamborn. Okay. And thank you for your answers.
    I got another question or two. And before I go any further, 
Admiral Grady and Admiral Aquilino, I just want to thank you 
for your service, and your wives also, because they contribute. 
Thank you for what you are doing and have done and will do for 
our country.
    Now, at current levels of funding, how long will it take 
the Navy's shipbuilding program to produce enough cruisers and 
destroyers to lessen the operational pressure? And with all of 
the classes of ships competing for funding, I expect that 
improvement will still take some considerable time.
    Admiral Grady. Sir, I would agree with you. That will take 
time. And so the stated goal of 355 I think is an appropriate 
target. Three different studies have looked at that. So 
somewhere in the nature of 355 of what it would take to meet 
the challenges of great power competition that all three fleets 
face. It will take time to get there and consistent and stable 
funding to do that.
    And it could be--it won't be next year or even within the 
FYDP [Future Years Defense Program]. It will be beyond that. 
And so having that consistent stable funding to build to the 
355 a worthy goal, which I think is borne out by the challenges 
of the international environment. But it will not be overnight. 
It will take time.
    Admiral Aquilino. Yes, sir. Admiral Grady has it absolutely 
right. But there is another component of it.
    So, while we strive to get bigger, there is a critical 
aspect of getting bigger just doesn't mean buying a ship, 
right? There is a wholeness aspect to the Navy that is needed. 
So we need to buy the ship. We need to buy the people. We need 
to buy the parts. We need to buy the maintenance. And when we 
have all that, then we will be on the sustainable path to be 
able to maintain and employ the larger Navy that is needed. So 
it is a critical aspect.
    The ship by itself helps a little. But also all those other 
things are absolutely needed. Thank you, sir.
    Mr. Lamborn. Okay. So just to summarize, what I am hearing 
you say is that although we had considerable funding in the 
past, the last fiscal year and this fiscal year, when we had a 
sizeable plus-up, you are saying that that current sustained 
level needs to continue for years into the future to do the job 
properly.
    Admiral Aquilino. Absolutely.
    Mr. Garamendi. Thank you, Mr. Lamborn.
    Mr. Lamborn. Thank you.
    Mr. Garamendi. The question of how to fully fund all parts 
of a 355-ship Navy is going to be part of our work as we get 
into the budget in future hearings. Your question is right on.
    Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    Admiral Grady, Admiral Aquilino, thanks again for joining 
us today. Thanks for your service.
    I want to begin with you, Admiral Grady, and ask you a 
question with regard to manning. How many sailors is the Navy 
short of to perform the missions? And what is the Navy doing 
right now to essentially man up?
    And then a question for both of you: Is it acceptable for 
you to send ships on predeployment training and predeployment 
workups when they are short of the required number of sailors 
for a deployment cycle?
    Admiral Grady. Thanks, sir.
    The number of billets that we need to be full--or in whole 
for the fleet is 6,200. And I am confident that my partner over 
at the CNP [Chief of Naval Personnel] has worked hard to 
program and budget to that requirement. It will take some time 
to get that. It takes a while to get there. And then, of 
course, as we build the Navy the Nation needs, that number may 
rise as new ships come in.
    So that is the number. We are working hard to get there. It 
won't happen overnight. Again, it takes a while to train. And 
then when they do come, that is not a master. That is an 
apprentice. And they have to become a journeyman, a supervisor. 
So that takes time to work its way through.
    But 6,200 is the number. And we are working hard to be 
fully funded to that.
    Ideally, when we execute the workup cycle for a strike 
group, say, the date that we wish to have everyone in place is 
at the beginning of the maintenance phase. That makes absolute 
sense. And as we work our way out of that hole, we do buy some 
risk there in the maintenance phase and delay that date, that 
kind of hard date, further into the training cycle. And with 
the ultimate goal of deploying in full at the required levels 
of the right number of people and the right skill sets there 
that they bring to the ship. So we do buy some risk now as we 
work through that 6,200, particularly in the maintenance phase.
    I do believe that, when we push a ship out to do the basic 
phase, that both Admiral Aquilino and I look very hard at that 
risk calculus if they are not fully manned to that level. And 
we would not let them go if they were not.
    Additionally, if there were additional tasking, which can 
happen during the workup phase, we have established a minimum 
training requirements matrix that all three fleets have agreed 
to such that, from a manning and a training perspective, you 
will only go do those missions that you are trained and 
certified to do even before the ultimate certification for 
deployment. That is new, and that is an important addition to 
our surface force readiness manual and how we think about 
minimum training requirements for the ships.
    Admiral Aquilino. Thanks, sir.
    So is it acceptable? Again, with the risk calculus talked 
about by Admiral Grady, we do it only when we understand the 
risk. That said, that is why the model has identified the need 
for those sailors, right?
    The best ships come out when those ships are fully set up, 
they do all the training together, they deploy together. That 
said, the Navy rotates. We do rotate 30 percent every year. And 
the structure on the ships, we train those sailors as well. 
They show up trained. They continue to train in a team. So that 
does happen.
    But there is one thing that we have implemented to ensure 
that we understand exactly the risk we accept. Before any of 
those ships begin that basic phase, we have tasked them to 
execute a ready-for-sea assessment. So we understand what is on 
the ship. We have a team that looks at them before they begin 
that basic phase for those that are not fully manned. And that 
gives us a level of confidence that they are either ready or 
not on top of the other things.
    Admiral Grady. Just to go into a little bit further, part 
of that ready-for-sea assessment includes bridge resource 
management workshops. And in this, we have learned and rely 
heavily upon our civilian shipmates from the Military Sealift 
Command, the strategic sealift officers, to come give us an 
external view of both the individuals and the teams that are 
onboard. So it is a key and new element where we learn from the 
best of the best on the civilian side. And that bridge resource 
management workshop is a key part of the ready-for-sea 
assessment.
    Mr. Wittman. I think those are great points.
    Let me get you to dive a little bit deeper into that. I 
think what you all have done as far as training, whether it is 
changes at Surface Warfare Officers School [SWOS], whether it 
is in certifications for basic seamanship, for rules of the 
road, are all good things. But I am still concerned about some 
of the structural elements of how sailors advance in higher 
skill levels there within the surface fleet.
    There are some elements like lack of deck handling time for 
junior officers, a generalist approach to both deck and 
engineering billets, the CO/XO [commanding officer/executive 
officer] fleet-up, and also, too, issues of adopting some 
international watch-standing standards for officers on the deck 
and people that are standing watch.
    So I wanted to get an idea about what do you think should 
be done in those areas of structural reforms within the Navy to 
make sure that we have some certainty there with experience 
levels and level of knowledge?
    Admiral Grady. Yes, sir. I will start with the standards of 
training, certification, and watchkeeping.
    Again, learning from the best of the best in the civilian 
infrastructure and our civilian shipmates, we took a look at 
all of the--and I will use the Surface Warfare Officers School 
as an example. We took a look at all of the PQS [Personnel 
Qualification Standards] there. And now nearly two-thirds of 
all of our PQS there now meets STCW [International Standards of 
Training, Certification and Watchkeeping for Seafarers] 
standards. Additionally, all of the instructors at SWOS are 
certified in accordance with the STCW standards.
    When we look at surface warfare maritime requirements and 
DC [damage controlman] requirements and measure them against 
the STCW, we exceed third mate requirements. Similarly, in our 
new SWO [surface warfare officer] logbook, we exceed third mate 
requirements. So I think we have done the right thing and 
continued to learn from the best of the best in the civilian 
world.
    Now, in terms of the, for instance, surface warfare officer 
[SWO] training that we provide them and the SWO career path, if 
you will, we have recognized that it is all about the 
appropriate experience.
    So, on the SWO career path, the total duration at sea for a 
young division officer is now going to be 4 years. Some split 
of notionally 30 months on the first ship--important that it is 
30 months on the first ship because they get a chance to really 
sink their teeth in, get a lot of moving water under the keel. 
But the option does persist for them to stay 4 months, 4 years 
if the captain so desires to give them even more time.
    And from a SWO division officer training, we have increased 
that training from 14 to 23 weeks, much more time in the 
classroom and then in the simulators before they get a chance 
to go out and really put it to work.
    Across the SWO milestone careers, from ensign to captain to 
full captain, we have instituted 10 milestone checks, three of 
which are go/no go. You can fail this and not move on. This is 
the culture of excellence at work. And to this point, 5 percent 
of those folks have been asked to leave the command pipeline 
because they were not ready.
    And then, finally, more experience in ships. So, in the 
past, we used to take a division officer and allow him or her 
to, after their first 24 months, say, serve up on a staff. We 
don't do that anymore. Only the best of the best will serve 4 
years and then get to go to one of those staffs, similarly, for 
department head training.
    And on the enlisted side, we have focused on things like 
quartermaster and operational specialist training that are so 
critical to navigation, seamanship, and shiphandling. And 
across the curriculum there to include how we use the Voyage 
Management System and electronic navigation or automated 
information systems and how those two teams work together, we 
have significantly improved that pipeline.
    I guess the last one is I believe that the complexity of a 
modern Navy warship demands that we not have a topside officer 
and an engineering officer. I think this is absolutely 
critical.
    I am going to give you a personal story, if you don't mind, 
sir. I was a department head in the USS Princeton back in the 
early 1990s. As many of you may recall, they suffered a mine 
detonation during Operation Desert Storm. The two officers that 
were on watch and responded to that were the weapons officer 
and the engineering officer, both of whom so well understood 
the complexity of their systems, the integration of the combat 
systems, and the engineering plant, how to maneuver the ship, 
that they were able to keep fighting for 72 hours by pointing 
the forward deckhouse up-threat into Iraq.
    I think, given the complexity, that is why you need 
officers who are both engineers and topside ship drivers and 
warfighters.
    Mr. Garamendi. Thank you, Mr. Wittman.
    We are now going to go to the clock, and we are going to 
take questions from the members that arrived in order prior to 
the gavel.
    That would be you, Mr. Cisneros. You can start.
    Mr. Cisneros. Thank you both for being here today. I am a 
Navy veteran, and I enjoyed my time onboard ship and look back 
very fondly on it.
    The thing I want to kind of dive into a little bit and when 
I read about the Fitzgerald was the lack of manning and how 
that cruiser had, basically, if you go back 10 years ago, was--
I think well over 350 was the manning and had been reduced to 
under 300. And watches had been eliminated such as your port 
and starboard lookouts.
    I want to know if that situation has been corrected on all 
our Navy ships.
    Admiral Grady. Yes, sir, it has. So some decisions were 
taken, for all the right reasons, in the past to try to 
leverage technology, for instance, to see whether we could get 
to a minimal or optimal manning construct.
    And so, in your day, you probably had a lot more sailors 
onboard the ship, similarly for me when I was a young division 
officer.
    So those decisions were taken. And as we sailed in that 
environment, we recognized that that was too few. And, indeed, 
since 2012, you know, the number on a DDG [guided-missile 
destroyer] was 240. In 2017, it is about 270. And we will be 
funded to--back up to very close to the original size for a 
guided-missile destroyer in 2023 of about 318 and 320.
    So, while we had worked hard to see if we could--because 
personnel is expensive, and so that did not work out well, and 
now we are buying back to a larger size crew complement for a 
destroyer, for example.
    Admiral Aquilino. And, sir, from the Pacific side, all the 
forces that are deployed right now meet the standard we have 
set of 95 percent fill and 92 percent fit, which is the right 
job--the right person with the right skills in the right job. 
That was one of the big changes that we have absolutely pulled 
up to the highest level to make sure that nobody's out there 
well below a level that somebody didn't know.
    Mr. Cisneros. And going back to the changes that you made 
at SWOS, the Surface Warfare Officers School, now that they are 
spending more time there, they got rid of the former program, I 
think, where they were learning on CDs onboard the ship.
    But you have a group of officers who went through that 
program who may not be, as we will say, as good ship drivers as 
they could be if they have gone to the programs going now.
    How are we going back to correct those who may be 
department heads right now to make sure that we are bringing 
them up to speed?
    Admiral Grady. Yes, sir. That is a great point for those 
officers who have not benefited from the improvements in basic 
division officer training that we give them now, that started 
in 2012. Those officers who are now becoming department heads 
or soon-to-be captain--XOs [executive officers] and captains. 
We have instituted these 10 career milestone checks where we 
ensure that they are meeting the new and improved standards. We 
are providing them more in-classroom time not the CD-based kind 
of ``SWOS in a Box'' that you are referring to. And this 
includes assessments too, so from the classroom assessment to 
that which we do in the trainer, which is very, very high-
fidelity training.
    So we are able to recognize that not all training is the 
same. We accomplish that by their returns to SWOS. And, of 
course, there is a leadership issue there too. So the COs are 
now working very, very hard to train their wardrooms to the 
appropriate level.
    So I feel confident that, whether they are part of the--a 
graduate of the new Basic Division Officer Course or not, they 
will have the appropriate training. And if not and they don't 
meet the requirement in one of those three touch points, then 
they don't make the cut.
    Admiral Aquilino. And, sir, I am encouraged, because as a 
naval aviator, I have now taken a look at the training that my 
surface counterparts have implemented, specifically the use of 
simulation right now in the form of our LCS [littoral combat 
ship] training for both officer, enlisted. There is new 
technology that allows you to be more effective in your 
training.
    That model is going to be transitioned into the destroyer 
type/model/series as well. So the way we train is getting 
better. That will allow us to be able to more quickly get those 
up to speed who haven't had it.
    Mr. Cisneros. All right. I yield back my time.
    Mr. Garamendi. Thank you. Mr. Joe Wilson.
    Mr. Wilson. Thank you, Chairman John Garamendi, and 
Admirals, thank you very much for your service and for your 
Navy families. It is particularly impressive to me to be here 
with great appreciation because I am here as the very grateful 
dad of a member of the U.S. Navy, and so I just so appreciate 
your service. I am also--had the opportunity sadly to visit the 
USS Fitzgerald at Yokosuka, Japan, and I saw where our devoted 
sailors were tragically killed. I want to thank you for every 
effort to avoid such an accident ever to occur again.
    And in line with that, Admiral Aquilino, the USS Fitzgerald 
and the USS John McCain were forward deployed in Japan for over 
20 years. This extensive overseas homeporting contributed to 
deferred depot maintenance, and also overall deteriorated the 
conditions of the ships. What are the Navy's plans to implement 
the National Defense Authorization Act requirement that ships 
return to the U.S. after 10 years overseas, and then is the 
Navy considering ways to increase ship repair capabilities in 
the Pacific, such as the Guam shipyard?
    Admiral Aquilino. Sir, thank you for the question. So the 
Fitzgerald and McCain absolutely are on track, first of all, to 
be able to become repaired, get the required training they 
need, and then to deploy with the confidence that is required.
    I will start with the Guam piece. Again, Admiral Davidson 
had asked that we take look at capabilities that exist across 
the theater to ensure that we are postured correctly in time of 
crisis. And we are taking a look at Guam and what capabilities 
might be there, how we might want to use them, again, to 
increase our overall capacity. The Yokosuka repairs--again, I 
believe now that we have had--we have given the operational 
role to the Naval Sea Systems Command in Yokosuka, that will 
certainly help make sure that we execute the right level of 
maintenance when we are forward deployed, and we absolutely are 
developing a plan right now to ensure we can get to the 10-year 
limit that you have identified, and I am waiting to take a 
brief on how we are going to do that. That will also take a 
little bit of time to implement.
    One of the considerations there is the ship crew members 
and the families, so we don't, over the next 2 years, have to 
swap five ships out, and we will work with Congress, sir, to 
make sure we get that right.
    Mr. Wilson. And I am grateful that you have brought up 
about looking into Guam. The strategic location is absolutely 
incredible. Three hours to everywhere, and the patriotic people 
of Guam are just--should be so treasured, and I look forward to 
seeing what response you have further on that.
    Additionally, at the 2017 readiness hearing that I chaired, 
I asked the Government Accountability Office about its June 13, 
2017, report which identified readiness issues just 4 days 
before the Fitzgerald incident. The GAO statement indicated 
that the expired training certifications likely played a role 
in the incidents. Please discuss the changes that the Navy has 
made since the GAO report was published in 2017. Who certifies 
the ships homeported within the Indo-Pacific area of 
responsibility? Have reforms been instituted specifically as to 
waivers?
    Admiral Aquilino. Absolutely, sir. So there are no more 
waivers, unless granted by me; so any waiver or request to 
operate in a manner that doesn't meet the identified standards 
are my decision alone. And so from a top-down perspective, I 
don't know what else we could do. To date, I have granted no 
waivers.
    With regard to the certs, again, my battle rhythm for 
understanding, again, 3 days a week, on every ship that is out, 
whether or not they have the appropriate manning, the level of 
training, and the certification, is briefed to me 3 days a 
week. If any of those don't meet the requirement to execute the 
assigned missions then they will not be tasked.
    Mr. Wilson. Thank you very much. And, Admiral Grady, in the 
statement you provided, you mention the important role of 
nuclear deterrence. The nuclear triad is critical to protecting 
the homeland and strategic deterrence. What investment is the 
Navy making to strengthen our nuclear deterrence?
    Admiral Grady. Well, of course, sir, the most survivable 
leg of the nuclear triad is our SSBN [ballistic missile 
submarine] force. And so the maintenance and sustainability of 
the current Ohio-class SSBN force is absolutely critical to the 
viability of that nuclear triad.
    Secondly then, is the follow-on to the Ohio-class 
submarine, which is the Columbia-class submarine, and I believe 
with the support of the committee and the Congress, we are 
working toward achieving that.
    And finally, there is the investments in the E-6 airplane 
that is part of the apparatus airborne command and control 
platform and all of the connectivity that allow us in a 
contingency or a crisis to command and control the nuclear 
deterrent. And so, across those three things, the Navy is 
significantly invested in that, probably number one mission.
    Mr. Wilson. Thank you very much, sir.
    Mr. Garamendi. Thank you, Mr. Wilson. Ms. Houlahan.
    Ms. Houlahan. Thank you. And thank you, gentlemen, for 
coming. I very much appreciate your time, and as we have 
talked, I am the daughter and the granddaughter of Navy 
officers. I have four Active Duty cousins right now, three of 
whom are in the Navy, one of whom is a submariner and one is a 
Navy SEAL. The third a Navy nurse. And so, I have a personal 
appreciation for the impact that you all have and the impact in 
operational demands have on the sailors at the individual level 
and at the family level, as well.
    Lack of training and resourcing at the individual level 
amplified at the organization level has significant impact as 
we have seen obviously. In fact, my father actually authored 
something for the Navy Proceedings on this very subject. He is 
a naval historian now in his retirement.
    Admiral Grady, my question is for you. The October 2017 
Comprehensive Review stated, quote, ``Today, proficiency in 
seamanship and navigation competes for time and attention with 
the expanding tactical duties of our naval professionals at 
sea. Further, the operational demands for surface ships to 
perform these missions continue to increase, even as the size 
of the surface force in the Navy has decreased.'' So my 
question for you is when you were commissioned, sir, how long 
was your first course of instruction as a surface warfare 
officer?
    Admiral Grady. It was 4 months.
    Ms. Houlahan. Four months?
    Admiral Grady. Yes, ma'am.
    Ms. Houlahan. And how long is that same training course 
today?
    Admiral Grady. It is 23 weeks now.
    Ms. Houlahan. And so, I also, in addition to being an 
Active Duty member myself in the Air Force, was a teacher for a 
time, and my question to you is when you shrink the level of 
instruction that significantly, you clearly must have to 
compromise something, or have you compromised something? And if 
you have, sir, what do you think that you have compromised?
    Admiral Grady. Well, time is always one of the more 
important training commodities and resources that we attempt to 
manage, but I think compromise is not a term I would use. I 
think we found efficiencies, particularly in the modernized 
delivery of training content, and so, to your colleague 
commented on CD-based training, that was not effective; we 
thought it would be, but it was not. And so now the appropriate 
mix of classroom training and simulator training and practical 
work has bought us the efficiencies, I think, in the new Basic 
Division Officer Course at 23 weeks with the appropriate amount 
of time to come very close to what I learned back in 1984.
    I would tell you that in that time, it was a lot of 
PowerPoint, and it was kind of seapower through memorization. 
And the course that we have now is not that. It is much more 
practically oriented with rigorous assessments, even in that 
Basic Division Officer Course. My own son is a graduate of that 
course, and he would tell you it was pretty hard. And that is 
good. And that is what we need. And so I think less compromise, 
but more getting better at the modernized delivery and 
understanding the learning science. And I would tell you, too, 
that that passes over to how we train our enlisted sailors. So 
as we bring Ready, Relevant Learning online that is one of the 
three lines of effort, how do you deliver modernized content, 
recognizing the science of learning? And I think we have come a 
long way there.
    Ms. Houlahan. Thank you. And the Comprehensive Review 
identified the need for additional training and focus, and in 
the initial training environment, it wasn't as extensive of a 
program as it possibly currently--I am sorry, as it was. Has 
the Navy considered expanding the scope of the initial surface 
warfare training to include real-world and simulated seamanship 
and navigation training?
    Admiral Grady. Yes, ma'am, we have. So there is that first 
23 weeks, which, again, starts with classroom training but then 
spends a lot of time in the simulator. The rest of the pipeline 
training for a junior officer will include two junior officer 
of the deck courses, which will all be simulator-based, and 
then finally, an officer of the deck, simulator-based course 
with repeated touch points at our Surface Warfare Officers 
School. Far beyond--particularly from the simulation and 
training perspective in the simulator, far beyond what I ever 
had.
    Ms. Houlahan. Thank you. And my last question is actually 
kind of switching gears a little bit and talking a little bit 
about the maintenance of ships. Will the modernization of our 
aging public yards exacerbate the backlog that already exists, 
do you feel?
    Admiral Grady. It is certainly a requirement that we 
modernize our public shipyards. So the Secretary's shipyard 
improvement operational program, the SIOP, which is a 20-year 
program for about $22 billion, is absolutely critical. So if 
you walk our shipyards today, fantastic artisans and craftsmen 
in each of those, masters of their trade, but they are just not 
laid out well. That is one example of what we need to do with 
that $22 billion over 20 years.
    So we need to modernize the delivery of the maintenance, 
which includes everything from getting the right capital 
equipment on board to how we lay out from an efficiency 
perspective each of our public yards. I would tell you, too, 
that I believe that is happening in the private shipyards, too, 
and I would encourage them to do that as we work to be a better 
partners with them.
    Ms. Houlahan. And I have no more time, but that was 
actually my follow-on question, which had to do with the 
privatization opportunities with shipyards, as well. I thank 
you very much for your time, gentlemen. I yield back.
    Mr. Garamendi. Ms. Houlahan, thank you for raising the 
shipyard issue. We will be spending a lot of time on that in 
the days ahead. Mr. Kelly, you are next.
    Mr. Kelly. Thank you, Mr. Chairman, and I also want to 
thank the spouses and children, who pay such a huge price for 
our Nation. I also want to recognize our senior enlisted 
leaders right behind you, and as you guys know in command, you 
can't exist without great senior enlisted leaders, and that is 
why we are the greatest military in the world is because of our 
senior enlisted leaders.
    We have to fight today with what we have, especially in 
your area of the world. Having traveled the Pacific Rim last 
spring with Senator Inhofe, the chairman of the Armed Services 
Committee in the Senate, the time and distances that are there 
we have to be capable, and we have to have every ship in the 
fight at the right place at the right time just to hold until 
we can get the rest of our fleet there.
    America is the greatest power in the world like many powers 
before us, and being an Army guy, it is hard for me to admit 
this, but America is a great power because of the seapower. And 
we control the seas, just as Britain was and Spain and France 
and Japan, and you go on and on. You have to be able to control 
the seas in order to be a great power.
    I am concerned right now in that region with the firepower 
ratios that we have with China, who has many ground-based 
systems to support their fleet. Also concerned with the 
standoff that we have. Fully supportive of a 355-ship Navy, 
which I think gets us to the place, but using all of our 
allies, okay, Japan, South Korea, the Philippines, Guam, all 
those things in that area, are we capable of fighting tonight 
and withholding, and are we leveraging all our ground, air, and 
sea to make sure that we have the right firepower ratios at the 
right time?
    Admiral Aquilino. Sir, thanks for that question. There has 
certainly been growth in some of our principal adversaries in 
the Pacific with regard to their force structure, as well as 
their capabilities. I am here to tell you, I am ready tonight. 
The force that we have certainly has--well, let me put it this 
way: We fight the away game, as you have identified. So when 
some adversaries are able to do stuff on their shores, the away 
team is going to go to that fight, we have to be able to 
sustain that fight, and we can do that today.
    Additionally, you brought up the allies and partners. It is 
critical that we work with our allies and partners. You know, 
one of our asymmetric advantages is our adversaries have no 
partners. That is pretty important, sir. So your observations 
are absolutely accurate, but we are ready to fight tonight.
    Admiral Grady. If I could, sir, your Navy is the contact, 
blunt, and surge force that is written into the National 
Defense Strategy, and I would love to host you down in Norfolk 
to maybe have a classified session where we can talk about some 
of these exchange ratios, or I am sure Lung would happy--would 
be happy to have you out there. And the other element I would 
mention is we have to be able to fight with the joint force, as 
well, and we are doing that.
    Mr. Kelly. My next question kind of goes off, and it is not 
on my notes, so one of the things that keeps me awake at night, 
and I hope it keeps you guys awake at night, is our inability--
the number of hospitals we have, both for soft power and hard 
power, especially in that area of the world, the hospital ships 
that we have, and also the icebreakers that we have that some 
of our competitors are ahead of us. You know, China has a huge 
number of icebreakers as does Russia in that area.
    Tell me how icebreakers affect your fleets and your ability 
to maneuver and do the things that you need to do in that 
region?
    Admiral Aquilino. If you don't mind, sir, I will start with 
the specific question on the hospital ships. So each year, we 
do an operation called Pacific Partnership, where we take a 
hospital ship or one of our other ships with deployed medical 
teams that go out and do humanitarian missions across the 
region. We do that every year. That is the soft power you are 
talking about. And before I give it to Chris to talk about 
icebreakers, I would just like to say, you know, my goal is to 
sleep well every night. I would like my counterpart to not 
sleep well at all.
    Mr. Kelly. I am with you on that.
    Admiral Grady. I guess I would add that the idea and the 
issue of combat medicine is really important for the Navy to 
get a hold of, and so in Lung's AOR [area of responsibility], 
that idea of a golden hour is not going to be there, and we 
have to be ready to think innovatively on how we are going to 
do that. So adaptive force packaging on smaller ships in 
addition to the two hospital ships that we have that provide 
that soft power we need to--creative thinking on that, and rest 
assured that we are both doing that with our fleet counterpart 
in Europe.
    Now to the icebreaker question, it is clearly evident that 
the Arctic is a new frontier. And so, a lot of folks flowing 
into the Arctic for a host of various reasons from the demand 
for fish stocks and proteins to what is on the bottom to our 
adversaries perhaps trying--or at least one adversary trying to 
create a bastion up there.
    So icebreakers will enable us to fight more effectively in 
that environment. And so, we support the--our fellow sea 
service, the Coast Guard, in their initiatives to get more 
icebreakers into their force. And, again, we will fight 
together with them as we push into the Arctic and the more 
cold.
    Mr. Kelly. And my time is expired. I yield back.
    Mr. Garamendi. I thank you, Mr. Kelly. I have been waiting 
for this next questioner. She comes with some experience as an 
executive officer on a cruiser, Mrs. Luria.
    Mrs. Luria. Well, thank you, Admirals, for being here 
today. And in advance of the hearing, I reviewed the 
Comprehensive Review. I went back and reviewed the Balisle 
report, several GAO reports, and numerous other examples where 
over time, we identify problems, we implement corrective 
actions, but we fail to sufficiently assess and follow through 
with these before we find ourselves back here again at yet 
another hearing to take more corrective actions, and, you know, 
find ourselves with more avoidable mishaps.
    And as we have acknowledged, we are here today because of 
the tragic loss of 17 lives of our sailors because we continue 
to be incapable of properly manning, training, and equipping 
our surface forces, in my mind, to perform the most basic 
functions of seamanship and navigation.
    And for nearly two decades, we prioritized efficiency over 
effectiveness as is clearly delineated in the Balisle report, 
and you have touched on the fit and the fill and where we are 
getting, you know, closer to the manning we need, but just as a 
comment, I would urge that we look back at what we did with the 
Top Six Roll-Down, and that we have actually rolled back up to 
the right skill sets to fill those numbers in the future.
    And, you know, in the Comprehensive Review, I feel that we 
face, yet again, another damning report that shows we 
prioritize breadth over depth of experience and expertise and 
proficiency in our surface forces, and due to the limitations 
of time, I have a few yes-no questions, and I would ask that 
you keep it to that just so that we can move on.
    And, Admiral Aquilino, did you find this report, the 
Comprehensive Review, to be a fair critique of our surface 
navigation training at the time?
    Admiral Aquilino. Yes, ma'am.
    Mrs. Luria. And my problem, and from my own personal 
experience in having gone through this entire career pipeline 
and then served as a division officer, department head, XO, 
dealt with the junior officers who had, you know, only learned 
through ``SWOS in a Box,'' is that our corrective actions 
overwhelmingly required the same people through OJT [on-the-job 
training] who have gone through the same ineffective training 
that you have described as inadequate, to fix the problem.
    And it is encouraging that you mention that we have 
enlisted the force of our civilian mariners through, you know, 
a more robust BRM [bridge resource management] course, but 
again, that is probably only several days, and I just have a 
feeling that we continue to use OJT to train ourselves with the 
same people who don't have the right proficiencies. And, you 
know, I just tried to put it in the context for you, Admiral 
Aquilino, thinking that you are an aviator, and if we had a 
similar report that found that aviators weren't able to fly 
planes safely. So you had a plane crash, you had 17 people die 
in this plane crash and you did an investigation and found out 
that that pilot did not know how to fly his plane. And then we 
did another report and we found out that most of our pilots did 
not know how to fly planes, do you feel that we are really 
putting that same sense of urgency into the corrective actions 
in our surface force as an example such as that?
    Admiral Aquilino. So the differences are--I don't know if 
it is very easy to make that similar analogy, but your point is 
absolutely valid. I think we did focus on efficiency back in a 
time when there was clearly very extreme pressures on funding 
pieces.
    Mrs. Luria. They are only going to give me 5 minutes, so 
the question is do you feel the sense of urgency? When you are 
implementing these actions, do you feel that it has the 
appropriate sense of urgency, and do you have the resources to 
apply the sense of urgency that this deserves?
    Admiral Aquilino. Yes, so I believe we are taking the right 
actions, yes, ma'am.
    Mrs. Luria. Okay. And to further amplify that, you know, as 
the commander of the Pacific Fleet, your theater has really the 
most complex and challenging environment, you know, with the 
BMD [ballistic missile defense] threat, tension on the Korean 
peninsula, near-peer adversaries, increasing naval activity 
from China and Russia and, you know, each of these require the 
highest competency and the highest skills to conduct major 
combat operations in your theater. And, you know, does the 
status of our simple basic navigation and seamanship training 
that raises concerns about competency of our surface forces 
give you confidence that our surface forces can fight at the 
highest level against our adversaries in the Pacific?
    Admiral Aquilino. Absolutely, with one comment. So that is 
not just a question for the Pacific. Your Navy will surge to 
wherever--as you know, wherever the fight is. So if the fight 
starts in the Pacific, my belief is I will get a lot of Admiral 
Grady's forces and vice versa if it starts in the Atlantic. So 
we trained the skill sets and we are ready to operate wherever 
crisis breaks out.
    Mrs. Luria. Okay. And my last comment, you know, and I 
thought a lot about this in reading through the Balisle report 
specifically, is that we have moved away from training to 
fundamentals. We learned relative motion with a popsicle stick 
and a grease pencil on a SPA-25 radar repeater, and we knew 
with the rigor of, you know, every 3 minutes putting this on a 
MOBOARD [Basic Maneuvering Board] and looking out the window, 
we understood what we were looking at around us. And I feel 
that, you know, we have advances in technology that are very 
important and are very critical tools, but just from my 
personal experience, my observation is that we have moved away 
from the absolute fundamentals behind the technology that we 
use, and have we restored a foundation in those fundamentals in 
the training before we go to the simulation and the ARPA 
[Automatic Radar Plotting Aid] and all of the tools that are 
out there to be used today.
    Admiral Grady. I am confident the answer to that is yes, 
and to your earlier comment about OJT, we have broken the chain 
of that, so what we have put in place has broken the chain of 
unqualified people training unqualified people. I would be 
delighted to host you up at SWOS to show you the improvements 
that have been made, or at the fleet concentration centers for 
Basic Division Officer Course and the Advanced Division Officer 
Course, the two JOOD [Junior Officer of the Deck] Courses, the 
OOD [Officer of the Deck] Course. I think you would be 
impressed and come away with greater confidence.
    Mrs. Luria. I appreciate that, and I will look forward to 
that as well, and you know, my experience as SWOS as a division 
officer is they crammed 3 weeks of training into 6 months, and 
it was not rigorous at all, and no one failed, so I hope we 
have turned that paradigm around. And thank you again for your 
time.
    Mr. Garamendi. Gotta love it. One of the attributes of the 
Readiness Committee is the freshmen that have joined the 
committee. They come with an extraordinary set of experiences 
and able to not only ask questions, but understand answers that 
many of us wouldn't know. I look forward to a second round, and 
you gentlemen could, too. Let's see. We are going to Mr. Waltz, 
you are next.
    Mr. Waltz. Thank you, Mr. Chairman. Thank you, gentlemen, 
for being here today. I want to echo the gratitude to your 
families. I tell people all the time, yes, of course, thank 
your veteran, but take an extra step and thank spouses, 
parents, children, it truly is a team effort for our All-
Volunteer Force, so thank you all for being here.
    I grew up the son and grandson of Navy enlisted chiefs in 
Jacksonville, Florida, and then defected and spent 23 years in 
the Army, so bear with me.
    I want to go back to the 6,200-sailor shortage and just ask 
you a few questions on that. How long, and forgive me if I 
missed it, but how long in the timeline to fill that shortage? 
What percentage of the overall, you know, of the overall force 
does that represent? And then just some detail on is that 
across the board? Is that certain types of ships? Is that older 
versus newer where technology is filling in in certain types of 
systems? Subsurface, surface? Can you just kind of flesh that 
out for me for a minute?
    Admiral Aquilino. I will have to get back to you on the 
percentage. So I can tell of my--between 140 and 150,000 
sailors in the Pacific, 6,200, you know, if we take 60 percent 
of that, it is mine. So that is the applicability. It is 
balanced across all of the forces and----
    Mr. Waltz. Okay.
    Admiral Aquilino [continuing]. Different ships have 
different sizes, so it is kind of difficult--we don't just say, 
Hey----
    Mr. Waltz. Forgive me, Admiral. What I want to get at is 
there a certain rating, is there a certain kind of low-density/
high-demand type of rating that you are having a hard time 
with, or is it kind of spread across the force?
    Admiral Aquilino. I would say it is spread evenly. There is 
critical NECs [Navy Enlisted Classifications] or capabilities 
that each of the ship needs. One of those that was called out 
in the report was quartermasters, that there is not enough at 
sea, that there is too many ashore, so we review all that. When 
we put ships out, they must have the correct amount of those 
critical capabilities on board or they don't go.
    Mr. Waltz. How long has the shortage persisted? Has this 
been for decades? Has it been for years? Was it a result, just 
to be candid, of sequestration and shortfalls in the last 10 
years? Like what is, just very quickly, on the nucleus of the 
problem?
    Admiral Aquilino. I would say the history is the shortfalls 
persisted for a number of years, but I will tell you in the 
past 4 or 5, we are working, as Admiral Grady identified, in 
the correct direction. So back in 2000 and I think it was 12 
[2012], the number was 260 on a DDG. And today that number, the 
requirement is up at 315. So it has persisted for a while. We 
continue to get there. We thank you for your support. We have 
added 7,500 alone last year in the budget that we couldn't have 
done that without the teamwork that you provide. So on the 
right track. I think we get there in 2023 to get to 100 
percent.
    Mr. Waltz. If we don't continue the current level of 
funding obviously, you know, then that is going to change that 
trajectory?
    Admiral Aquilino. Yes, sir.
    Admiral Grady. You are helping us buy our way out of that 
hole, but then the new ships will be coming, so we will have to 
continue to man the fleet for the new ships, as well.
    Mr. Waltz. Okay. Admiral, you mention--well, let me--you 
mentioned that you had actually stopped some deployments, ships 
weren't ready, fleets weren't ready. Operationally what 
couldn't you do when that happens, what risks did you take in 
your AOR [area of responsibility] when that doesn't happen?
    Admiral Aquilino. We took risk in the form of a single 
deployment to the Western Pacific in support of the--or 
deployment to the South Pacific Islands that we were supporting 
in conjunction with our Coast Guard partners. That is one. I 
reduced a ship that was supposed to go to the Rim of the 
Pacific exercise, and then we took risk with regard to surge 
forces that if crisis were to have broken out, they would have 
needed additional training before they could have gone. That is 
the risk.
    Admiral Davidson also reduced one of the missions that was 
previously in my job jar based on the current environment. He 
removed that again for now. The enemy gets a vote, so those 
could easily come back if the times were different.
    Mr. Waltz. So I just want to get in my remaining time, it 
is my understanding U.S. PACOM [U.S. Indo-Pacific Command] sets 
the requirement, but then also sets the fill. And that is a 
carve-out. Is that still the case? I know some other members, 
my colleagues have gotten at that, but is that--is that 
basically the plan going forward? I just find that coming from 
my background to be odd, to be candid.
    Admiral Aquilino. That is actually not accurate.
    Mr. Waltz. Okay.
    Admiral Aquilino. So PACOM sets the requirement. This is 
what I need to do the missions that the President has assigned 
to him.
    Mr. Waltz. Right.
    Admiral Aquilino. When each year the Navy produces a 
sourcing solution or here are the forces that we will deploy in 
the next year, what we have pushed forward now over the past 
couple of years is a supply-based model. So there are many 
requirements as set by Admiral Davidson and the other combatant 
commanders that we currently are not filling. The Secretary of 
Defense adjudicates those differences between what is needed by 
the combatant commander and what has been put forward by the 
services. So that is really the accurate model and the way it 
works.
    Mr. Waltz. Would you be able to provide--would you be able 
to provide for the record what isn't being filled then, I mean, 
what the gaps are going forward in that supply-based model?
    Admiral Aquilino. Yes, sir.
    [The information referred to was not available at the time 
of printing.]
    Mr. Waltz. Okay. Thank you, Admiral. I yield back.
    Mr. Garamendi. Thank you. And I will now turn to Mr. 
Golden.
    Mr. Golden. Thank you very much, sir. Just a couple of 
quick thoughts for the subcommittee as a whole, because I want 
to say as a Marine Corps infantryman, I am not the subject 
matter expert on sailing around in naval ships. Thankfully, I 
have got Congresswoman Luria sitting next to me to drill into 
the weeds on that. But the extent of my experience really is 
riding around out in the Atlantic and taking a splash in an AAV 
[amphibious assault vehicle] to invade Virginia, which I will 
say as a native New Englander, I enjoyed. But, you know, I just 
wanted to point out to the committee, and I think that this is 
a great hearing and one that is necessary, that my 
understanding of what Congress' role should be in regards to 
oversight really lies in the world of dictating to the Navy who 
it is that we fight or compete with and why. And I really 
looked to you all in the Navy to come before these committees 
and talk about the where do we fight and where do we compete 
with them, and more importantly, what do we need to do it, to 
win and to do it as safely as possible.
    It is a dangerous job, but we ought to give you all the 
equipment, ships, and personnel necessary to accomplish that 
mission with the least amount of lives lost and put at risk as 
possible.
    So I just want to encourage you. In this subcommittee, I 
suspect that we are going to be looking to work together to get 
you what you need. So don't hesitate to tell us what that is. 
And, you know, I recognize this in you as officers, and I want 
to thank you and tell you I respect very much that you sat up 
there with your opening statements and took full responsibility 
for these incidences, which is what good officers and good 
leaders do, and I appreciate that very much. You did not offer 
any excuses. You probably could have pointed a finger right 
back at Congress as we look, I think, to maintain operational 
tempo while also talking about your need to shift to address 
threats from Russia and increasing competition from China.
    It would make sense to this Marine, you might have to take 
a step back in order to prepare for that mission and achieve 
that high level of readiness. Yet, we are asking you just to 
hit the accelerator button, and so, with that I think comes a 
great responsibility to talk about how we are going to free up 
additional resources, because if we are not going to, you know, 
decrease the requirements, then I think we are going to have to 
give you more ships and more Navy personnel down the road.
    So, you know, I would just share from you from the enlisted 
perspective I have been on deployments to Afghanistan and Iraq 
in a Marine infantry unit, and people--you know, we lose 
people, people get injured, people get hurt, and as those 
numbers go down, you increase the amount of time that you are 
standing post out on patrol really no down time whatsoever. And 
we train for operating tired, but none of us are perfect, and 
ultimately, you push people too hard, and that is where 
mistakes happen, and I am sure that had something to do with 
this.
    And I know you keep that in mind, but, you know, the very 
best sailors in the world, you push them too hard, they get 
overtired, mistakes will happen, and that gets back to you all 
coming in here and telling us what you need to make sure that 
they don't have to be in that position. So thank you very much, 
and I look forward to working with everyone on the committee.
    Mr. Garamendi. Thank you very much. Your comments are well 
taken. Mr. Bergman.
    Mr. Bergman. Thank you, Mr. Chairman, and thank you to all 
of you in the room today, especially those of you wearing the 
uniform--wearing the uniform, and those who will bring the next 
generations into uniform. I would like to, maybe, take a little 
different take on the keeping our adversaries awake at night. I 
would like for our potential adversaries to sleep very well at 
night, knowing they have made the very wise decision not to 
challenge us, because if this world had some more good sleep 
time in it we would probably make some better decisions across 
the globe. And when it comes to rest for your crews, whether, 
you know, off watch that down time is essential for your 
commanders, your watch officers, your engineering officers, 
whoever has the watch to make the best decisions at the time.
    You know, it is great to have a fellow naval aviator. I 
will keep my hands down. I won't talk with my hands, okay, but 
the idea is that readiness is an honest assessment of the 
effectiveness of a training curriculum. Back in the early 
2000s, then CNO Vern Clark spent, I think, $11 billion in the 
New Center at Great Lakes when they closed Orlando, moved all 
the operations there because in chatting with him back in that 
timeframe he realized that these young men and women who were 
in boot camp to become effective members of a team were going 
to have to have different kinds of training experiences and 
that involved the extensive simulation that they have there in 
Great Lakes.
    And for anyone who has never seen it, a tour there would 
be, I think, greatly beneficial to a lot of our members who 
have not under--had the opportunity to excel under the rigors 
of training like they have at Great Lakes.
    Now having said that, any schoolhouse left unattended tends 
to set its own standards, fall in love with its own curriculum 
sometimes. So to what extent has the Navy had to overcome what 
we might call the schoolhouse mentality in which the 
schoolhouse being reluctant to change, but yet, you know as the 
leadership in the Navy, you have to change. Would you care to 
make a comment on how you have made strides going forward with 
that bringing the schoolhouse along with you?
    Admiral Aquilino. Yes, sir, I will jump in there. So the 
feedback mechanism that we have implemented across the Navy 
with regard to the lessons learned that we take out of conflict 
that we are in today whether it be Iraq, Syria, Afghanistan, 
each deployment that the units are on those feedback loops plug 
directly back into our training mechanisms in the form of 
Strike Group Four, Strike Group 15, Top Gun, and SMWDC [Surface 
and Mine Warfighting Development Center], so that the crews and 
the teams that go through our training are identified and 
trained to the latest threats that exist. And in a closed 
session, I can give you some of those critical things that we 
learned and that we quickly implemented with regard to adjusted 
training, such that the next team out the door would be the 
most up to speed for the threats they might see.
    Admiral Grady. And I would add that this is the central 
concept of the Navy's Ready, Relevant Learning program. This 
idea that stasis is bad and that you have to have the virtuous 
feedback loops to say are we on plan with the training we are 
provided. And so from a Ready, Relevant Learning perspective, 
three lines of effort for that: What is the career continuum? 
When is the right time and right type of training to deliver to 
a sailor throughout their career path? Secondly is that 
modernized delivery that we talked about before recognizing the 
advances in the science of learning and how our young people 
learn.
    And then the third, to your point, sir, the third line of 
effort is one that we call integrated content development. And 
that is the virtuous feedback loop that our type commanders--
the surface boss, the aviation boss, the submarine boss--they 
are the ones that own the appropriate training, build a 
feedback mechanism into the schoolhouse to say this we need to 
add, we don't need more of that, we need more of this, and that 
is what Ready, Relevant Learning is going to bring us in that 
third line of effort.
    Mr. Bergman. Is the attitude that it is okay to fail, in 
fact, training is--you are supposed to fail in training because 
if you haven't, if the training is perfect, if everybody gets 
100 on every exam, obviously your standards probably aren't 
stringent enough, is the attitude there that it is okay to 
fail, just don't fail twice at the same thing?
    Admiral Grady. Well, I think failure breeds great learning. 
Of course, back to the surface warfare officer pipeline, if you 
fail in one of those three check points, then we are not going 
let you command a ship. But to your point, failure helps 
learning and so test a little, learn a lot.
    Mr. Bergman. Thank you, and I see my time has expired. Just 
one closing quick one. Rising--we hear a lot that rising tides 
lift all boats. Rising standards lift all performance. Thank 
you very much.
    Mr. Garamendi. Thank you Mr. Bergman. Mr. Gallagher.
    Mr. Gallagher. Thank you, Mr. Chairman. Just to clarify 
something you said earlier, Admiral Grady, was that the initial 
SWO training went from 4 months to 23 weeks, right?
    Admiral Grady. No, sir. It went from 4 months back when I 
was----
    Mr. Gallagher. Yeah.
    Admiral Grady [continuing]. To nothing----
    Mr. Gallagher. To nothing.
    Admiral Grady [continuing]. To SWOS that was administered 
as OJT with computer-based training CD-ROMs, to 17 weeks of 
reestablishing the basic division or accession course, to now 
23 weeks plus three additional courses as part of their junior 
officer training.
    Mr. Gallagher. Got it. That is helpful. Last summer, 
Defense News reported there was a widespread shortfall in basic 
seamanship across the surface fleet, so out of 164 randomly 
selected newly qualified first tour division officers at SWO 
school, a review found at least some concerns with the 
shiphandling skills of nearly 85 percent of the group. How did 
littoral combat ship officers fare relative to the rest of the 
fleet?
    Admiral Grady. They fared quite well. You are referring to 
one of the immediate and controlling actions we took following 
the tragic loss of our 17 shipmates, and that was OOD 
competency checks. So we went around the fleet and sampled, and 
this is what we found. The train to qualify, train to certify 
model that the littoral combat ship uses, as Admiral Aquilino 
said, is amazingly effective and I believe you will see it 
brought to the rest of the fleet over time. And what we are 
finding with the--those that are trained in those simulators, 
both in Jacksonville or Mayport and in San Diego, is that those 
officers are very, very advanced in their ability to drive the 
ship when it is really moving water under the keel.
    Mr. Gallagher. I mean, I think it is fair to say, I think 
you would agree, based on what we just said, that the live 
virtual constructive training environment is a distinguishing 
aspect of LCS and also has been positively correlated with 
their superior performance in that sample size.
    Admiral Grady. Absolutely.
    Mr. Gallagher. So, I guess with that in mind, does the Navy 
have any plans or what plans does the Navy have to bring that 
sort of LCS-style simulation training to other platforms across 
the surface fleet, and what are the associated timelines with 
those plans if they exist?
    Admiral Grady. Well, it starts with the build-out of our 
Navy seamanship and shiphandling trainers in all of the fleet 
concentration areas, and by 2019, by the end of 2019, we will 
have these high-fidelity simulators built out in all of the 
fleet concentration areas, but this is just an interim 
solution.
    The goodness in these is the fidelity of the trainer plus 
the teamwork that comes in. So it is not just the bridge, it is 
not just the combat information center, and one of the things 
we learned from the tragedies is the ability to work together. 
So the interim solution is the build-out of the NSST 
[navigation, seamanship, and shiphandling trainer] trainers in 
all of the fleet concentration areas. After that we are working 
to build maritime shiphandling training centers in both Norfolk 
and San Diego that will fully inculcate this idea of high-
fidelity simulators for bridge, CIC [combat information 
center], and the team, and that is to the tune of about $240 
million or so, and that will be done in the early 2020s.
    Admiral Aquilino. Sir, there is one point highlighting with 
regard to the simulation capability. There is another aspect of 
the training that I believe has been embraced by my surface 
counterparts. It is a part of Naval Aviation culture, and 
that's the vigorous self-assessment. And if you go to the LCS 
trainer, and you see a commander going through the program 
being trained by a lieutenant who is a weapons and tactics 
instructor telling the commander, Hey, you did that wrong, that 
vigorous self-assessment with the no-holds-barred, or gloves 
off, no retribution, has been easily as effective as the 
simulation itself for us to get better and to work towards that 
culture of excellence.
    Admiral Grady. And I would add, it is the simulation that 
enables that, because we can play it back and show them what 
they did wrong. And additionally, we have identified 14 high-
stress scenarios that we can do over and over again to help 
them learn. You can't really do that underway on a ship all the 
time because of other operational requirements, but we can put 
this plan, brief, execute, and debrief process to work because 
of the high-fidelity simulation and really learn much faster. 
High-velocity learning.
    Mr. Gallagher. Thank you, gentlemen. I yield the balance of 
my time.
    Mr. Garamendi. Just a quick follow-up. The use of 
simulators you said 20--in the early 2020s to get this advanced 
simulation program underway?
    Admiral Grady. So the interim--the interim capability that 
we have, which will approach the full build-out, will be this 
year. We will finish this year. But then the larger build-out 
in both the two major fleet concentration areas will conclude 
in the 2022 timeframe.
    Mr. Garamendi. Very good. We spent a lot of time at this 
hearing on training. There are the other pieces of this puzzle 
need to be more fully explored, particularly the readiness of 
the ship itself, the equipment, maintenance, and the like. We 
will pick that up at a later time. I think we have run through 
all of the witnesses. I see Mr. Courtney has returned. So I 
think we have finished the hearing. Without further questions 
from the members, we will adjourn the hearing.
    Before I adjourn, I want to thank Admiral Grady, Admiral 
Aquilino, and your spouses for joining us today and for the 
rest of the support. We will continue this--the focus of this 
hearing was principally on the Pacific. We know that is not the 
only place the Navy operates, and we will spend a little more 
time next time we go through this, probably in maybe 6 months 
from now, come back and review the progress along the way. 
Keeping in mind what Mr. Wittman said, he suggested that we 
take the responsibility to be the oversight, and we will. So 
with that the hearing is adjourned.
    Admiral Aquilino. Thanks, Mr. Chairman.
    Admiral Grady. Thank you, sir.
    [Whereupon, at 11:34 a.m., the subcommittees were 
adjourned.]

     
======================================================================


                            A P P E N D I X

                           February 26, 2019
     
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           February 26, 2019

=======================================================================

   [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           February 26, 2019

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. WITTMAN

    Mr. Wittman. Admirals, in testimony before this committee last 
year, Secretary Spencer and CNO Richardson indicated their support to 
strike an appropriation limitation, otherwise known as the Inouye 
amendment. Specifically, CNO Richardson indicated ``this Inouye 
amendment . . . is an artificial seam that inhibits [Navy] from 
establishing a single standard.'' Do you agree with the Secretary and 
CNO that the Inouye amendment and other forms of arbitrary 
congressional direction to Navy should be eliminated?
    Admiral Grady and Admiral Aquilino. We agree with the Secretary and 
the CNO that Sec. 8056 of Public Law 115-141 and other similar 
congressional directives that limit Navy's flexibility should be 
eliminated. The generation of combat ready forces across the Navy is 
executed to one standard that is governed by the Integrated Readiness 
Instruction (OPNAVINST 3000.16) signed by the CNO 15 Feb 2019. These 
standards guide readiness policies and certifications of all Navy 
forces regardless of their geographic location.
    Mr. Wittman. Admirals, in response to a continuing concern as to 
material readiness, Congress required Navy to adopt a limited notice 
INSURV inspection program. Compared with the previous INSURV strategy, 
what have been the fleet impacts to this limited notice INSURV strategy 
and what are the results?
    Admiral Grady and Admiral Aquilino. NDAA-19 directed INSURV to 
conduct minimal notice inspections by 1 January 2020. INSURV has 
developed a plan to conduct 24 ``pilot'' inspections to determine the 
best method to implement our understanding of minimal notice and is on 
track to execute no notice material inspections on all ships and 
submarines by 1 October 2019. As of 1 Apr 2019, INSURV has conducted 
six minimal notice ``pilot'' inspections with no significant adverse 
impacts on ship schedules and scores have been 5 to 10 percent lower 
than previous averages for DDGs and CGs.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MRS. LURIA
    Mrs. Luria. Admiral Grady, the IMO has established requirements for 
the safe navigation of merchant vessels through the standards of 
training, certification, and watchkeeping (STCW) for seafarers. Why is 
the Navy so hesitant to require the same standards for its officers and 
why do our accession sources not require a similar level of sea time 
and subsequently actual at-sea time gaining proficiency in performing 
your job before advancing to the next level?
    Before they take command submariners have a comprehensive 
evaluation through the Submarine Commanders Course, which requires 
proficiency in navigation and warfighting, yet no similar requirement 
exists or is recommended in your corrective actions. Should I take from 
that that warfighting on the surface is not as important as warfighting 
on the subsurface?
    Before a strike group deploys, the culmination of their training is 
the Joint Taskforce Exercise, which is where you as the fleet commander 
certify a ship for deployment. How many strike groups in the last 10 
years have failed the JTFEX?
    This report has identified that Surface Warfare Officers and crews 
lack basic navigation fundamentals, which has not come to light in the 
culminating training event. So is this culminating event in which you 
certify the ship for deployment adequate since it has never identified 
any of these problems?
    Admiral Grady. (a) As outlined within the recent NDAA Section 334 
Report to Congress, the Surface Navy is not hesitant to require the 
same standards for its officers, and has adopted significant portions 
of the STCW requirements where they align with those of Surface 
Warfare. We have completed a side-by-side comparison of the IMO STCW/
3rd Mate and SWO qualification requirements and extracted those 
applicable to the U.S. Navy. Some portions of STCW bear minimal or no 
application to Surface Warfare requirements. As such, wholesale 
adoption is not practical. Surface Warfare training includes both 
Navigation, Seamanship, and Shiphandling (NSS) requirements and a 
breadth of maritime warfighting skills. With respect to effectively 
navigating and handling ships, Surface Warfare NSS requirements are 
comparable to those of the USCG and the Merchant Marine, as shown 
below. Areas in which Surface Warfare Mariner's Skills training bears 
full STCW/USCG accreditation include Bridge Resource Management (BRM) 
and Electronic Chart Display and Information System (ECDIS) training. 
Some areas in which Surface Warfare Mariner's Skills requirements are 
comparable to STCW/USCG requirements, and for which accrediting is 
forthcoming, include Automated Radar Plotting Aid (ARPA) set up and 
employment, to be fielded in 2021 in conjunction with the standup of 
OOD Phase I and the Maritime Skills Training Centers (MSTCs). Some 
requirements in SWO mariner skills training that are aligned with STCW/
USCG requirements, but for which USCG accreditation has not been 
granted credit or for which additional Surface Community training 
modifications are required include conducting celestial navigation, 
maintaining an anchor watch, or use of IMO Standard Marine 
Communication Phrases (SMCP). Areas in which STCW/USCG requirements 
have little or no application to Surface Warfare requirements include 
cargo handling and stowage, operating life-saving appliances, or 
applying medical first aid.
    (b) No. Maritime Warfighting is a long-standing Surface Warfare 
core competency. The Surface Warfare Officer Requirements Document 
(SWORD) outlines specific career milestone expectations for: 
Navigation, Seamanship, & Shiphandling (``Drive the Ship''), Maritime 
Warfare (``Fight the Ship''), Program & Material Management (``Manage 
the Ship''), and Leadership (``Command the Ship''). Since its 
inception, one-half of the 6-month Surface Warfare Officer Department 
Head Course is devoted to Maritime Warfare and developing the most 
proficient Tactical Action Officers (TAOs). Additionally, approximately 
4 months of additional tactical and maritime warfare training (as 
determined by billet and combat systems baseline) is received via 
Division Officer and/or Department Head Billet Specialty Training 
(BST). Key Navy training commands such as: Naval Surface & Mine Warfare 
Development Command (NSMWDC), Tactical Training Groups Atlantic & 
Pacific (TACTRAGRULANT/PAC), Expeditionary Warfare Training Command 
(EWTGLANT/PAC), Carrier Strike Groups FOUR & FIFTEEN (CSG-4/CSG-15), 
the Surface Warfare Officer's School (SWOS), and the Center for Ship's 
Combat systems (CSCS) ensure robust maritime warfighting training to 
the Surface Force, provide critical maritime warfare training/
assessment at individual and team levels, and bear significant SWO 
staff representation.
    (c) The Composite Training Unit Exercise (COMPTUEX) is the 
culminating event for deployment certification, and is not focused 
exclusively on specific or discrete navigation skills. Instead, 
COMPTUEX is an integrated, multi-warfare event that tests command & 
control, offensive/defensive capabilities, and supported/supporting 
commander missions and roles within a Joint environment. The exercise 
stresses the integrations of Naval, Joint, and Coalition forces 
executing combined missions within a multi-threat environment.
    Mrs. Luria. Admiral Aqualino, did you find this report to be a fair 
critique of surface navigation training? Yes or no?
    Yet your corrective actions require the same people who have gone 
through the same ineffective training--which you have described as 
inadequate--to fix the problem.
    We have marginalized the stringency for establishing similar high 
standards on our surface ships that we require in our aircraft and 
submarines.
    If a similar report found that aviators were not able to fly and 
navigate airplanes safely--if you had an aircraft crash and kill 17 
people and you did an investigation and found out that the pilot didn't 
know how to fly the airplane--and then you did a comprehensive report 
and you found out that the majority of your pilots didn't know how to 
fly--Do the corrective actions in this report have a similar sense of 
urgency (as in my example) that is needed to fix this problem in the 
surface force? Yes or no?
    As the Commander of Pacific Fleet your theater has some of the most 
pressing challenges that exist in the Navy today: BMD threat Tension on 
the Korean Peninsula Increasing naval threat from China & Russia Each 
of these requires the highest competency to conduct major combat 
operations in your theater. Does this report--which raises concerns 
about competency in the most basic navigation skills--give you 
confidence that surface forces can conduct these major combat 
operations if required? Yes or no?
    Sailors know that the work that they do is dangerous. Flight 
operations are dangerous. Underway replenishments are dangerous. 
Boarding vessels is dangerous. Combat operations are dangerous. But 
navigating through a shipping channel on a routine basis should not be 
dangerous. We owe it to these sailors, to their families and loved 
ones, to get it right this time.
    Admiral Aquilino. Yes, I believe these reports to be fair critiques 
of surface navigation training at the time the reports were released. 
Yes, we are treating these reports and taking actions with a similar 
sense of urgency as you describe. Yes, I have confidence that the ships 
I have deployed and the ones that we are deploying have been certified 
on the prerequisite skills to not only navigate safely but are ready to 
execute major combat operations.

                                  [all]
</pre></body></html>
